App A-l
VIRGINIA:
In the Court ofAppeals of Virginia on Monday the 9th
day o/March, 2020.
James Gardner Dennis,
against

Appellant,

Record No. 0497-19-2
Circuit Court Nos. CR08-20,245-01
through CR08-20,264-01, CR08-20,33401 and CR08-20,335-01

Commonwealth of Virginia,

Appellee.

From the Circuit Court of Albemarle County
Counsel for appellant has moved for leave to
withdraw. The motion to withdraw is accompanied
by a brief referring to the part of the record that
might arguably support this appeal. A copy of this
brief has been furnished to appellant with sufficient
time for appellant to raise any matter that appellant
chooses.
The Court has reviewed the petition for appeal
and appellant's pro se supplemental petition for
appeal, fully examined all of the proceedings, and

1

App A-2
determined the case to be wholly frivolous for the
following reasons:
In 2008, the trial court convicted appellant
under a written plea agreement of sexual battery,
carnal knowledge, use of a computer to solicit a
minor, and twenty counts of possession of child
pornography. The trial court sentenced appellant to a
total of forty-two years and eighteen months of
incarceration with twenty-one years and one
hundred and thirty-eight months suspended,
conditioned on the successful completion of
supervised probation.
In August 2017, appellant finished his active
term of incarceration and began supervised
probation. Approximately a year later, his probation
officer reported that appellant had been charged with
two counts of sex trafficking to receive money. In an
addendum, the probation officer reported that under

2

App A-3
a plea agreement appellant had been convicted of
two amended charges of residing in a bawdy place
and sentenced to a total of twelve months of
suspended incarceration. As part of the plea
agreement, appellant agreed "to give a proffer to law
enforcement" regarding " information pertaining to
other bawdy houses where human trafficking could
be occurring in Virginia and that he would provide
information pertaining to the involvement of his
employer... in human trafficking." Appellant gave
the proffer to Federal Bureau of Investigations
Special Agent Teresa Hudson in January 2019.
At appellant's probation violation hearing, he
conceded that he was in violation of his suspended
sentences based on the misdemeanor convictions.
Hudson testified that she had been investigating
appellant's "proffer" and had "[f]ound multiple
inconsistencies." Appellant made several allegations

3

App A-4
against his employer that were "fabricated and based
on [appellant's] own interactions with the women he
accusetd]" his employer of trafficking. First, Hudson
discovered that appellant, not his employer, had been
communicating with K.P., a nineteen-year-old
woman from another state, while he was
incarcerated. During phone calls, appellant
misrepresented his circumstances to K.P. and offered
to marry her even though he was married at the
time. Appellant objected to the admission of his
statements to K.P. He argued that his statements to
K.P. were not relevant because he had admitted that
the violated the terms of his suspended sentences.
The Commonwealth responded that his
"manipulation of [K.P.] from prison" was relevant for
sentencing because it "show[ eel] his dangerousness."
The trial court overruled appellant's objection.
In his proffer to Hudson, appellant also

4

App A'5
alleged that his employer had engaged in "
inappropriate [and] illegal activity" with appellant's
estranged wife, B.W. But B.W. stated that appellant,
not his employer, had "manipulated her from prison
using the attorney line." Lastly, appellant alleged
that his employer "expected sexual favors" from a
woman identified as K.H." in return for co-signing
for her car loan." K.H., however, denied that
allegation.
Hudson also testified that appellant had been
using an internet website called "Seeking
[Arrangements" as part of his sex trafficking
activities. Appellant objected to this testimony as
irrelevant "for this hearing," arguing that it is "not a
crime to go on a website ... of aged females" and that
doing so did not make appellant "more dangerous or
not dangerous." The trial court overruled the
objection.

5

App A’6
Appellant's probation officer, Zachary Zwahl,
testified that the conditions of appellant's probation
limited his use of a computer to "employment
purposes or employment related needs." Within nine
days of beginning supervised probation, however,
appellant accessed the "Seeking Arrangements"
website. Appellant admitted that the website was
"the same website he was using in his underlying
offense" and that he had been "instructed that he
was not permitted to access that website." There
were "multiple [other] instances" of appellant
"accessing the [Seeking Arrangements] website and
communicating with women."
Appellant's mother, Linda Dennis, testified
that her younger son is "mentally handicap" and the
"age of an eight year old mentally." Dennis also
testified that appellant's father, a Vietnam veteran

6

App A-7
who suffered from chronic PTSD, killed himself after
appellant was arrested.
The Commonwealth argued that the trial
court should impose "at least ten years" of active
incarceration "to protect [the] community." It
contended that due to the nature of his underlying
convictions, it was "[elxtremely important" that
appellant comply with the conditions of his
probation, especially the "conditions with respect to
his contact with women" and "internet websites." The
Commonwealth argued that appellant's convictions
for residing at a bawdy house were the consequence
of a plea agreement whereby the Commonwealth
reduced two charges of human trafficking "in an
effort... to crack down on the bigger scheme ... in
which he was involved," but appellant "didn't even
cooperate with that appropriately" by giving a
fabricated proffer. The Commonwealth maintained

7

App A-8
that appellant was "extremely" "dangerous 0" as
demonstrated by his persistent efforts to manipulate
young women over the phone, even while
incarcerated, and through the Seeking Arrangements
website while on probation.
Appellant asked the trial court to sentence
him to a year of active incarceration and extend his
term of probation. During argument, appellant's
counsel proffered, without objection, that his
convictions for residing at a bawdy place arose from
appellant's visits to "a standard massage parlor" that
involved payment in exchange for "sexual
intercourse." He also proffered that the underlying
convictions arose from consensual sex with a
seventeen-year-old girl who had claimed to be
twenty-one. Appellant proffered that he had the girl
"flown down from Connecticut," had " taken her out,"
and had "consensual sodomy" before learning that

8

App A-9
she "had lied about her age." Appellant argued that
there were no allegations that he had violated his
probation by communicating with "underage girls,"
but only "consen[ting] adults." He also argued that it
was not illegal to fly K.P. to Virginia for a date,
whether "it's for sexual intercourse or not." After
argument by counsel, the trial court revoked
appellant's suspended sentences and resuspended all
but five years.
I. Appellant, by counsel, argues that the trial
court erred by "sentencing [him] to too long of a
period of incarceration." He contends that five years
of active incarceration was an abuse of discretion
because this was his first probation violation and
there were no allegations that he had been
communicating with underage girls.
After suspending a sentence, a trial court
"may revoke the suspension of sentence for any cause

9

App A-10
the court deems sufficient that occurred at any time
within the probation period, or within the period of
suspension fixed by the court.” Code § 19.2-306(A).
“When a defendant fails to comply with the terms
and conditions of a suspended sentence, the trial
court has the power to revoke the suspension of the
sentence in whole or in part.” Alsberrv v.
Commonwealth. 39 Va. App. 314, 320 (2002). “In
revocation appeals, the trial court's 'findings of fact
and judgment will not be reversed unless there is a
clear showing of abuse of discretion.’” Jacobs v.
Commonwealth. 61 Va. App. 529, 535 (2013) (quoting
Davis v. Commonwealth. 12 Va. App. 81, 86 (1991)).
“The evidence is considered in the light most
favorable to the Commonwealth, as the prevailing
party below.” Id.
The trial court had sufficient cause to revoke
appellant's suspended sentences based on appellant's

10

App A-11
new convictions for residing at a bawdy place. Upon
finding that appellant had violated the terms of his
suspended sentences, the trial court was obligated to
revoke the suspended sentences, and they were in
“full force and effect.” Code § 19.2-306(C)(ii). The
trial court was permitted- but not required- to
resuspend all or part of the sentences. IcU Alsberrv.
39 Va. App. at 320.
It was within the trial court's purview to
weigh any mitigating factors appellant presented.
Keselica v. Commonwealth. 34 Va. App. 31, 36
(2000). Here, the record demonstrates that the trial
court considered the mitigating evidence that
appellant cites on appeal, including that this was his
first probation violation, that his younger brother
had a mental disability, that his father committed
suicide after appellant was arrested, and that his
sodomy conviction arose from consensual sex with a

11

App A-12
girl who had lied about her age. Balanced against
these considerations, however, was appellant's
continued criminal activity and use of the Seeking
Arrangements website. Considering all the
circumstances, the trial court imposed the sentence
that it deemed appropriate.
“The statutes dealing with probation and
suspension are remedial and intended to give the
trial court valuable tools to help rehabilitate an
offender through the use of probation, suspension of
all or part of a sentence, and/or restitution
payments.” Howell v. Commonwealth. 274 Va. 737,
740 (2007). After being convicted of sexual battery,
carnal knowledge, use of a computer to solicit a
minor, and twenty counts of possession of child
pornography, appellant continued to commit criminal
offenses of a sexual nature and used the internet to
communicate with women in violation of the

12

App A-13
conditions of his probation. Thus, appellant had
demonstrated that he was not amenable to
rehabilitation. “When coupled with a suspended
sentence, probation represents ‘an act of grace on the
part of the Commonwealth to one who has been
convicted and sentenced to a term of confinement.’”
Hunter v. Commonwealth. 56 Va. App. 582,587
(2010) (quoting Price v. Commonwealth. 51 Va. App.
443, 448 (2008)). Appellant had failed to make
productive use of the grace that had been extended to
him. Having reviewed the record, we hold that the
trial court did not abuse its discretion by sentencing
him to five years of active incarceration. See
Alsberrv. 39 Va. App. at 321-22 (finding the trial
court did not abuse its discretion by imposing the
defendant's previously-suspended sentence in its
entirety “in light of the grievous nature of [the

13

App A-14
defendant's] offenses and his continuing criminal
activity”).
II. In his pro se supplemental petition for
appeal, appellant argues that "[pjrosecutorial
misconduct tainted the probation violation hearing
and resulted in an unduly harsh sentence."
Appellant concedes that he did not present this
argument to the trial court but asks that we address
it under the ends of justice exception to Rule 5A: 181
"The 'ends of justice' exception to Rule 5AH8 is
narrow and is to be used sparingly.'" Melick v.
Commonwealth. 69 Va. App. 122, 146 (2018) (quoting
Pearce v. Commonwealth. 53 Va. App. 113, 123
(2008)). "[T]he ends of justice analysis is a two-step
process^ determining whether the alleged error
occurred, and, if so, whether justice requires
application of the ends of justice provision." Hines v.
Commonwealth. 59 Va. App. 567, 572 (2012). "The

14

App A-15
burden of establishing a manifest injustice is a heavy
one, and it rests with the appellant." Holt v.
Commonwealth. 66 Va. App. 199,210 (20 16) (en
bane) (quoting Brittle v. Commonwealth. 54 Va. App.
505, 514 (2009))." In order to avail oneself of the
exception, a defendant must affirmatively show that
a miscarriage of justice has occurred, not that a
miscarriage might have occurred." Melick. 69 Va.
App. at 146 (quoting Redman v. Commonwealth. 25
Va. App. 215, 221 (1997)). Furthermore, to
demonstrate that a miscarriage of justice has
occurred, " [i] t is never enough for the defendant to
merely assert a winning argument on the merits- for
if that were enough [,] procedural default 'would
never apply, except when it does not matter.'"
Winslow v. Commonwealth. 62 Va. App. 539, 546
(2013) (quoting Alford v. Commonwealth. 56 Va. App.
706,710 (2010)).

15

App A-16
The record in this case reveals no miscarriage
of justice. Appellant contends that the
Commonwealth's sentencing argument improperly
suggested, without supporting evidence, that
appellant communicated with underage women,
continued to be involved in human trafficking by
luring young women from out-of-state to "offend
against" them, and violated his probation by having
contact with women when there was no such
condition of his probation. His argument, however,
seizes upon fragments of the Commonwealth's
argument and removes them from their context. The
Commonwealth's argument properly focused upon
the nature of appellant's underlying convictions,
which included carnal knowledge of a minor and use
of a computer to solicit a minor, and emphasized that
appellant had engaged in the same behavior that led
to those convictions. That behavior included using

16

App A-17
the Seeking Arrangements website, in violation of
his probation, and communicating with K.P. over the
phone, who Hudson testified was nineteen years old,
while incarcerated. Appellant did not object to any of
these allegedly improper remarks before the trial
court. See Russo v. Commonwealth. 207 Va. 251,257
(1966) ("Objection to improper argument of counsel
should be made at the time.").
The Commonwealth also properly argued that
while appellant's new convictions were for residing at
a bawdy place, they were the consequence of a plea
agreement whereby appellant's human trafficking
charges where amended. By providing a largely
fabricated proffer, however, appellant "didn't...
cooperate with that [plea agreement] appropriately."
Considering these circumstances, the
Commonwealth concluded that appellant was
"extremely" "dangerous 0" and asked for the trial

17

App A-18
court to impose "at least ten years" of active
incarceration. Nevertheless, the trial court only
imposed five years of active incarceration. Having
reviewed the record, we conclude that there was no
miscarriage of justice in this case. Accordingly, Rule
SA: 18 bars our consideration of appellant's
argument on appeal.
III. Appellant, in his pro se supplemental
petition for appeal, argues that the "trial court erred
by allowing the unqualified admission of hearsay
evidence." We review "evidence relevant to an
admissibility issue 'in the light most favorable to the
Commonwealth, as the prevailing party, including all
reasonable and legitimate inferences that may
properly be drawn from it'" Jenkins v.
Commonwealth. 17 Va. App. 334, 342 (2019) (quoting
Henderson v. Commonwealth. 285 Va. 318, 329
(2013)). "On appeal, a determination regarding the

18

App A-19
relevance and admissibility of evidence is ordinarily
reviewed for ah abuse of discretion." Id. In
evaluating the admission of an out-of-court
statement for constitutional due process challenge,
however, "we 'accept Q the historical facts' and 'apply
a de novo review' to determine whether the record
supports admitting the challenged evidence as a
matter of law." Id. at 343.
Once a "criminal prosecution has ended in a
conviction," the defendant "is not entitled to the 'full
panoply' of constitutional rights to which he was
entitled at trial." Henderson. 285 Va. at 325 (quoting
Morrissey v. Brewer. 408 U.S. 471,480 (1972)).
Consequently, "application of the Confrontation
Clause to ... post-trial ... proceedings is
inappropriate." Moses v. Commonwealth. 27 Va. App.
293, 301 (1998). Nevertheless, "a defendant has a
limited right of confrontation in criminal sentencing

19

App A-20
and any subsequent revocation proceedings under
the Due Process Clause of the Fourteenth
Amendment." Jenkins. 71 Va. App. at 343. The rules
of evidence are not "strictly applied" in such
proceedings, and hearsay is "frequently admitted."
Henderson. 285 Va. at 326 (quoting United States v.
Doswell. 670 F.3d 526, 530 (4th Cir. 2012)).
To demonstrate wrongdoing at a revocation
hearing, testimonial hearsay is admissible only if the
trial court "specifically finds good cause for not
allowing confrontation." Id. To be admissible at "what
is clearly the sentencing portion of a revocation
hearing," however, testimonial hearsay need only
"bear some indicia of reliability." Jenkins. 71 Va.
App. at 346-48 (quoting Blunt v. Commonwealth. 62
Va. App. 1, 9 (2013)). Examples of indicia of
reliability include: "[d]etailed police reports,"
"hearsay given under oath," statements by the

20

App A-21
accused " that directly or circumstantially
corroborate the accusations," "corroboration of [the]
hearsay by third parties or physical evidence,"
application of a "well-established exception" to the
rule against hearsay, "evidence of substantial
similarities between past offenses and the new
accusations that bolsters the accuser's credibility,"
and the accused's "failure to offer contradictory
evidence." Saunders v. Commonwealth. 62 Va. App.
793, 808 (20 14) (quoting Henderson. 285 Va. at 327).
Appellant identifies two instances where he alleges
that the trial court allowed inadmissible hearsay,
both of which occurred during the sentencing phase
of the hearing after appellant conceded that he had
violated his probation. First, Zwahl testified that a
Winchester police detective had spoken with "a
female that [appellant] was taking to a jewelry store"
to "purchase items." Appellant's Winchester

21

App A-22
probation officer confronted appellant about that
interaction and his "accessing the website," but
appellant denied the allegations. Zwahl testified to
these events as they were described in the major
violation report. While that testimony contained
multiple layers of hearsay, it nevertheless satisfied
the some-indicia-of-reliability test because Zwahl
was testifying as to events personally investigated by
the Winchester police and probation officers and
recorded in appellant's major violation report. See
Wolfe v. Commonwealth. 37 Va, App. 136, -8142-43 (200 l) (affirming the admission of a
probation officer's testimony containing multiple
layers of hearsay when the probation officer obtained
information from a sheriffs department employee
who had personally investigated the complaint
against the defendant).

22

App A-23
Second, appellant argues that Hudson's
testimony regarding appellant's phone calls with
K.P. from prison were inadmissible hearsay.
Specifically, he argues that the trial court erred by
permitting Hudson's testimony of both appellant and
K.P.' s statements. "[A]n out-of-court statement by a
criminal defendant," however, "is admissible as a
party admission, under an exception to the rule
against hearsay." Atkins v. Commonwealth. 68 Va.
App. 1, 8 (2017) (quoting Bloom v. Commonwealth.
262 Va. 814, 820 (2001)). Additionally, Hudson
personally listened to the phone calls between
appellant and K.P. and testified as to what she
heard. See Blunt. 62 Va. App. at 4-7 (holding that a
police officer's testimony regarding the defendant's
participation in a drug sale had some indicia of
reliability when the officer, though not present for
the transaction, watched a video recording of the

23

App A-24
events). Moreover, the details of appellant's phone
call with K.P. had "substantial similarities" with the
facts of appellant's underlying conviction-appellant
communicated with an out-of-state female and flew
her into the Commonwealth for sexual intercourse.
Saunders. 62 Va. App. at 808 (holding that "evidence
of substantial similarities between past offenses and
the new accusations" is an example of an indicia of
reliability). Accordingly, Hudson's testimony
regarding the phone call between appellant and K.P.
had some indicia of reliability and was properly
admitted.
IV. Appellant, in his pro se supplemental
petition for appeal, argues that the trial court erred
by "by allowing testimony about Internet usage to
violate [his] probation." He contends that the
"probation restriction forbidding [him] from
accessing social media websites is facially

24

App A-25
unconstitutional." Appellant concedes that he did not
preserve this issue before the trial court but asks
that we address it under the ends of justice exception
to Rule 5A:18.2
As noted above, to demonstrate that a
miscarriage of justice has occurred," [i]t is never
enough for the defendant to merely assert a winning
argument on the merits- for if that were enough[J
procedural default 'would never apply, except when it
does not matter.'" Winslow. 62 Va. App. at 546
(quoting Alford. 56 Va. App. at 71 0). Rather, the
trial court's error must be " clear, substantial and
material." Campbell v. Commonwealth. 14 Va. App.
988, 993 (1992) (quotation omitted). To be "clear," an
error "must be apparent under existing statutory or
case law without the necessity of further judicial
interpretation and must not have been acquiesced in,
either expressly or impliedly, by the complaining

25

App A-26
party." Campbell. 14 Va. App. at 997 (Barrow, J.,
concurring) (citing Cooper v. Commonwealth. 205 Va.
883, 889 (l 965)). Additionally, the record must
affumatively show that the error "clearly had an
effect upon the outcome of the case." McDuffie v.
Commonwealth. 49 Va. App. 170, 178 (2006) (quoting
Brown v. Commonwealth. 8 Va. App. 126, 131
(1989)).
Here, appellant argues that the condition of
his probation restricting his computer use was
unconstitutional under the United States Supreme
Court's opinion in Packingham v. North Carolina.
137 S. Ct. 1730 (2017). In that case, the Court struck
down a statute prohibiting convicted sex offenders
from accessing social media sites-Facebook,
Linkedln, and Twitter-as unconstitutional. Id. at
1737. The Court held that "to foreclose access to
social media altogether is to prevent the user from

26

App A-27
engaging in the legitimate exercise of First
Amendment rights." Id. This Court has since
interpreted Packingham. however, as "not apply[ing]
to prohibit a circuit court from imposing, as a
condition ofprobation, a reasonable ban on internet
access provided such ban is narrowly tailored to
effectuate either a rehabilitative or publicsafety
purpose." Fazili v. Commonwealth. 71 Va. App.
239,25 1 (2019) (emphasis added). "Inherent in the
very nature of probation is that probationers do not
enjoy the absolute liberty to which every citizen is
entitled . . . but only ... conditional liberty properly
dependent on observance of [probation conditions]."
Id. (internal citations and quotations omitted).
Appellant could use a computer only "for
employment purposes or employment related needs."
This condition is more narrowly tailored to
appellant's underlying convictions-which included

27

App A-28
use of a computer to solicit a minor and possession of
child pornography-than the blanket ban on all
convicted sex offenders from accessing social media
at issue in Packingham. Additionally, it allowed
appellant to "receive [the] legitimate benefits" of
using the internet regarding his employment as he
"seek[s] to reform and to pursue [a] lawful and
rewarding" life. Packingham. 137 S. Ct. at 1737.
Thus, the United States Supreme Court's decision in
Packingham. as interpreted by this Court's decision
in Fazili. does not "clearly" and manifestly
demonstrate that the condition of appellant's
probation restricting his computer use was
unconstitutional. Indeed, had appellant raised the
issue before the trial court, it could have been
extensively litigated and argued by both parties. See
Campbell. 14 Va. App. at 997 (Barrow, J.,
concurring) (stating that an error is not "clear,

28

App A-29
substantial and material" when it involves
"unresolved questions of law" that a "trial judge may
reasonably rely on the parties to bring to [its]
attention"). Appellant did not raise the issue before
the trial court, however, and his argument on appeal
fails to affirmatively demonstrate that a miscarriage
of justice has occurred. Therefore, Rule 5A:18 bars
our consideration of his argument.
Accordingly, we deny the petition for appeal
and grant the motion for leave to withdraw. See
Anders v. California 386 U.S. 738, 744 (1967). This
Court's records shall reflect that James Garadner
Dennis, s/k/a, etc., is now proceeding without the
assistance of counsel in this matter and is
representing himself on any further proceedings or
appeal.
The trial court shall allow Michael J.
Hallahan, II, Esquire, the fee set forth below and

29

App A-30
also counsel's necessary direct out-of-pocket
expenses. The Commonwealth shall recover of the
appellant the costs in this Court and in the trial
court.

Costs due the Commonwealth by appellant in
Court of Appeals of Virginia:
Attorney’s fee

$400.00 plus costs and expenses

A Copy,
Teste: Cynthia L. McCoy (S)
Clerk

30

App B-l
VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building infhe City ofRichmond on
Monday the 1st day ofMarch, 2021.
James Dennis,
against

Appellant,

Record No. 200465
Court of Appeals No. 0497-19-2

Commonwealth of Virginia,

Appellee.

From the Court of Appeals of Virginia
Upon review of the record in this case and
consideration of the argument submitted in support
of and in opposition to the granting of an appeal, the
Court refuses the petition for appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By: (illegible signature)
Deputy Clerk

Additional material
from this filing is
available in the
Clerk's Office.

